U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




  Top Ten Management Challenges


                           September 2005
Major Challenges for the Department


This section highlights OIG’s Top 10 Management Challenges
that faced the Department at the close of this semiannual period.                    TOP 10 MANAGEMENT CHALLENGES
Each challenge meets one or more of the following criteria: (1) it is                 1. Strengthen Department-wide information security.
important to the Department’s mission or the nation’s well-being,
                                                                                      2. Effectively manage departmental and bureau acquisi-
(2) it is complex, (3) it involves sizable resources or expenditures,                    tion processes.
or (4) it requires signiﬁcant management improvements. Because
of the diverse nature of Commerce activities, these criteria some-                    3. Enhance USPTO’s ability to manage and operate its
                                                                                         own processes.
times cut across bureau and program lines. Experience has shown
that by aggressively addressing these challenges the Department                       4. Control the cost and improve the accuracy of Census
can enhance program efﬁciency and effectiveness; eliminate seri-                         2010.
ous operational problems; decrease fraud, waste, and abuse; and                       5. Monitor the effectiveness of NOAA’s ocean and living
achieve substantial savings.                                                             marine resources stewardship.
                                                                                      6. Promote fair competition in international trade.
                                                                                      7. Enhance export controls for dual-use commodities.
                                                                                      8. Enhance emergency preparedness, safety, and security
Challenge 1                                                                              of Commerce facilities and personnel.

STRENGTHEN DEPARTMENT-WIDE                                                            9. Continue to strengthen ﬁnancial management controls
                                                                                         and systems.
INFORMATION SECURITY
                                                                                     10. Continue to improve the Department’s strategic plan-
                                                                                         ning and performance measurement in accordance with
Safeguarding the numerous Commerce computer systems holding
                                                                                         GPRA.
nationally signiﬁcant data is one of the Department’s most critical
challenges. Commerce undertook a major certiﬁcation and accredi-
tation (C&A) improvement effort during this ﬁscal year and has                    all national-critical systems and over half of the mission-critical
made considerable progress. However, OIG’s evaluations under                      systems had been improved.)
the Federal Information Security Management Act (FISMA) have
revealed signiﬁcant problems in C&A of some of Commerce’s                         Clearly, we saw noteworthy improvements in the packages we
national- and mission-critical systems.                                           reviewed. NOAA had signiﬁcantly improved risk assessments,
                                                                                  security plans, and testing, while Census’s security plans were
As we discussed in our March 2005 Semiannual Report, the                          more comprehensive. In light of the few packages available for
Department’s Chief Information Ofﬁcer issued a plan last Febru-                   review, however, and the testing deﬁciencies we still found in most
ary to eliminate the IT security material weakness by producing
acceptable quality C&A packages for all national-critical systems
and some mission-critical systems by ﬁscal year-end and for all
systems by the end of ﬁscal year 2006. It included schedules that
were developed in collaboration with the operating units and plans
of action and milestones to track progress. It also provided for in-
creased oversight by the Department and bureau CIOs. Given the
plan, our approach to the C&A portion of our FISMA evaluation
was to review all improved packages available by August 31. Using
this approach, we reviewed ﬁve improved C&A packages—three
from NOAA and two from Census.1 (The Department’s CIO
subsequently reported that by September 30, C&A packages for                      Federal agencies face numerous threats to the security of information
                                                                                  stored in computer systems, because attack methods are increasingly
                                                                                  sophisticated.
1
 Based on schedules provided by the Department’s CIO Ofﬁce in June, we expected   Source: May 2005 GAO report, Emerging Cybersecurity Issues Threaten Federal
more than 20 C&A packages to be available by August 31.                           Information Systems. http://www.gao.gov/new.items/d05231.pdf.




                                                                                                                                                          1
Major Challenges for the Department




of the packages, we concluded that the Department’s C&A pro-               to ensure taxpayer dollars are spent effectively and efﬁciently and
cess has not yet improved to the point where authorizing ofﬁcials          that procurement laws and regulations are followed.
throughout the Department have sufﬁcient information about the
vulnerabilities remaining in their systems when it is time to make         In addition, how and when the Department and its bureaus plan
the accreditation decision.                                                and conduct acquisitions can determine whether or not projects
                                                                           of all sizes are successful. For example, OIG’s Ofﬁce of Systems
Last year we reported that USPTO had a good C&A process; as a              Evaluation surveyed the Census Bureau’s Field Data Collection
result, this bureau was not part of the C&A improvement effort.            Automation program, which is planned to provide ﬁeld staff with
Our review of two USPTO packages this year found shortfalls in             handheld mobile computers to gather information for the decennial
the continuous monitoring phase of C&A. Major changes had been             census. Census had originally intended to develop this program
made to these systems since they were certiﬁed and accredited in           internally with contractor support but determined in early 2004
2004, but the potential impact on the security of the systems had not      that it lacked the management and technical resources to develop
been assessed, nor had the need to reaccredit been evaluated.              the system in-house.

As part of our FISMA work during this semiannual period, we also           The Census Bureau’s late decision to use a contractor to handle the
examined USPTO’s IT service contracts to determine whether they            automation project and provide support services during the decennial
contained required security clauses and whether related security           and the initial slow pace in planning the acquisition put the program’s
requirements were being implemented. (See page 33.) We found               development at risk. We believe the delays in seeking an outside
most of the contracts do contain the security clauses, but since certain   contractor and in ﬁnding vendors could affect the preparation for
key requirements are not being properly implemented and enforced,          the dress rehearsal, although Census now reports that it has taken
background screenings for some contractor employees are conducted          actions to address shortcomings we identiﬁed. (See page 13.)
at too low a level and no contractor IT systems have been certiﬁed
or accredited. This could place restricted information at risk.            NPOESS. We recently initiated an audit of the award fee process
                                                                           being used in the National Polar-orbiting Operational Environ-
                                                                           mental Satellite System (NPOESS). The NPOESS system is be-
                                                                           ing funded by the Department of Defense and NOAA, with each
Challenge 2                                                                contributing half of the estimated cost of $8 billion. As such, this
                                                                           satellite system is one of the costliest activities undertaken by
EFFECTIVELY MANAGE                                                         NOAA.
DEPARTMENTAL AND BUREAU
                                                                           Follow-up on Flawed NEXRAD Power Source Acquisition.
ACQUISITION PROCESSES
                                                                           Our follow-up audit of NOAA’s efforts to address the problems
                                                                           we cited in our September 2003 report, Acquisition of NEXRAD
Commerce spends nearly $2 billion each year on goods and
                                                                           Transition Power Source Marred by Management, Technical,
services—roughly a third of its budget. It also relies more and
                                                                           and Contractual Problems (OSE-15676), found that the agency
more on contractor support to continue its mission-critical work.
                                                                           has for the most part taken the corrective actions it said it would
Adequate oversight of the Department’s acquisitions is essential
                                                                           in its action plan. Although some improvements are needed to its
                                                                           acquisition handbook, NOAA’s conscientious steps to bolster its
                                                                           procurement processes should help prevent problems in contract
                                                                           negotiation, review, and oversight that—in the NEXRAD procure-
                                                                           ment—ultimately added $4.5 million to project costs.

                                                                           Census Bureau IT Services Contracts. This semiannual report
                                                                           summarizes the ﬁndings of the second in a series of audits of
                                                                           Census Bureau IT services contracts. Our March 2005 semiannual
                                                                           report mentioned an audit of three task orders under an IT services
                                                                           contract in which we found $8.5 million of the $17.6 million
                                                                           charged to be questionable. In the current reporting period, we
                                                                           audited two task orders under another Census IT services contract.
                                                                           We found that the contractor had made more than $10.7 million in
                                                                           questionable charges to the government out of the total of $31.7
Commerce spends nearly $2 billion per year on goods and services in a      million billed. (See page 14.) We plan to continue our series of
variety of categories.                                                     audits of Census Bureau contracts and will report our ﬁndings in
Source: U.S. Department of Commerce, Systems Acquisition Division.         subsequent semiannual reports.



2
                                                                                      U.S. Department of Commerce/Ofﬁce of Inspector General
                                                                                                    Major Challenges for the Department




Challenge 3                                                          need to uphold merit system principles, establish human resource
                                                                     policies and procedures to guide decision-making, and ensure those
ENHANCE THE U.S. PATENT AND                                          policies and procedures are followed. In addition, the agency’s
TRADEMARK OFFICE’S ABILITY TO                                        HR staff needs appropriate training in the Standards of Ethical
                                                                     Conduct for Employees of the Executive Branch. (See page 35.)
MANAGE AND OPERATE ITS OWN
                                                                     It is imperative that USPTO bring stability to its human resources
PROCESSES                                                            operation and ensure that its employees have the appropriate skills
                                                                     and experience to perform the jobs to which they are assigned.
Our work at USPTO continues to focus on critical aspects of its
functioning as a performance-based organization as the agency        To its credit, the bureau has taken action to address the prob-
implements budget, procurement, and personnel operations that        lems OIG found in the past. In early 2005, the Ofﬁce of General
provide the ﬂexibility to adapt to changing market forces and meet   Counsel conducted an ethics training course for USPTO’s human
the needs of customers. Our previous work at USPTO assessed          resources department. Subsequently, USPTO split the position of
patent examiner production goals, performance appraisal plans        chief ﬁnancial ofﬁcer and chief administrative ofﬁcer into two
and awards, the agency’s move to its new headquarters complex,       positions, each with its own organization, and hired experienced
and reports of improper personnel practices. (See September 2004     human resources professionals to be OHR director and deputy
Semiannual Report to Congress, pages 38-40.)                         director, rather than continuing to rely on detailing other staff to
                                                                     those positions. USPTO also created a Comprehensive Human
This latter issue has been long-standing. Since 1999 we have re-     Capital Improvement Plan intended to address long-standing
ceived repeated complaints that management of USPTO’s Ofﬁce          problems in human resources.
of Human Resources (OHR) has allowed or encouraged unfair
personnel practices and activities that undermine the integrity      While we are pleased that USPTO has been receptive to our
of that ofﬁce and of USPTO in general. Our work in response          recommendations and has implemented numerous changes, the
to the complaints conﬁrmed numerous problems. Resolution of          problems we identiﬁed are serious and long-standing. The actions
these issues is particularly critical: USPTO has received author-    PTO has taken to date are strong steps in the right direction, but
ity to hire hundreds of examiners. It must have an effective HR      the ultimate resolution of these issues will require the sustained
operation that adheres to federal regulations, is guided by sound    commitment of senior management.
policies and procedures, and affords all employees the rights and
protections required by law.

During this semiannual period, we reemphasized this point to
senior Department and USPTO ofﬁcials, noting several issues
                                                                     Challenge 4
identiﬁed at USPTO that remain unresolved. These include the
                                                                     CONTROL THE COST AND IMPROVE
                                                                     THE ACCURACY OF CENSUS 2010
                                                                     At an estimated cost of more than $11 billion, the decennial
                                                                     census will be one of the most costly and critical operations the
                                                                     Department has ever undertaken. There are two ﬁeld tests and a
                                                                     dress rehearsal to be managed in addition to the actual census,
                                                                     so the Census Bureau and the Department face some formidable
                                                                     challenges in both controlling costs and improving the accuracy
                                                                     of the data collected.

                                                                     During this reporting period, we concluded a review of the bureau’s
                                                                     progress in planning and managing the automation of formerly
                                                                     paper-based ﬁeld data collection activities, scheduled for roll-out
                                                                     in the 2008 dress rehearsal. (See page 13.) Census expects the au-
                                                                     tomated process to improve data quality and operational efﬁciency
                                                                     and reduce overall decennial costs by as much as $900 million.
                                                                     The plan is to have a contractor handle the automation project and
                                                                     provide support services for more than 450 local census ofﬁces
                                                                     and 500,000 temporary ﬁeld staff at the peak of the decennial. But
                                                                     we are concerned that the contractor may not have enough time
                                                                     to adequately prepare for the 2008 decennial dress rehearsal, as



                                                                                                                                    3
Major Challenges for the Department




                                                                            The agency may have to deal with the storms’ impacts on Gulf
                                                                            Coast aquatic ecosystems for many years to come.

                                                                            In addition to monitoring NOAA’s response to hurricane damage
                                                                            as a steward of marine resources, OIG plans to focus on a number
                                                                            of other NOAA activities in the future, which may include the
                                                                            Integrated Ocean Observing System and marine debris respon-
                                                                            sibilities.

                                                                            During this reporting period, in response to a request from 19
                                                                            members of Congress, we audited the National Marine Fisheries
                                                                            Service’s (NMFS) preparation of a biological opinion for Califor-
                                                                            nia’s Central Valley Project, one of the largest water projects in the
                                                                            nation. (See page 21.) We sought to determine if NMFS’ southwest
                                                                            regional ofﬁce, which issued the biological opinion, adhered to
                                                                            policies, procedures, and standard practices. We concluded that
                                                                            NMFS deviated from its established process for initiating the
A census worker with a handheld computer shows ofﬁcial identiﬁcation card   consultation and ensuring the quality of the biological opinion.
during a practice for the 2006 census test.
                                                                            We recommended that NOAA objectively evaluate whether the
Source: U.S. Census Bureau.                                                 regional ofﬁce’s questionable handling of the opinion impaired the
                                                                            opinion’s scientiﬁc integrity. We also made several recommenda-
mentioned previously. We note that Census has taken measures                tions to NOAA to ensure that future opinions are sound and have
to steer the project back on track, but have recommended Census             maximum scientiﬁc and procedural integrity.
develop a sound project plan that includes objective measures of
progress and intensive management oversight                                 We also continued our series of reviews of salmon recovery pro-
                                                                            grams during this semiannual period, auditing three more programs
We have initiated our review of the 2006 ﬁeld test beginning with           funded by NOAA’s Paciﬁc Coastal Salmon Recovery Fund. As
the address listing operation. Among other things, we are assess-           with the audits we detailed in our March 2005 semiannual report
ing the bureau’s progress in improving the accuracy of address              (pages 31-32), we questioned costs and noted some administra-
lists and maps and its partnership program, which is designed to            tive weaknesses.
improve the response of historically undercounted populations,
and its resource management and planning. Our objectives in this
assessment also include follow-up on our review of the 2004 test
and the problems we identiﬁed with data transmissions, technical
ﬁeld support, lister training, and various other issues.




Challenge 5
MONITOR THE EFFECTIVENESS OF
NOAA’S STEWARDSHIP OF OCEAN
AND LIVING MARINE RESOURCES

As the lead agency for marine resource protection, the National
Oceanic and Atmospheric Administration (NOAA) is charged with
not only monitoring the health of our nation’s ocean and coastal
resources but also administering a large number of civilian ocean
programs, and these responsibilities are likely to expand. NOAA
already is assessing a broad range of the recent hurricanes’ effects
on habitat and ﬁsheries in the Gulf—from testing for toxins in
seafood and Gulf waters to recording the diminished numbers and             Erstwhile inhabitants of the Florida Keys National Marine Sanctuary.
redistribution of native species and the damage to coastal wetlands.        Source: www.photolib.noaa.gov/sanctuary/sanc0201.htm.




4
                                                                                        U.S. Department of Commerce/Ofﬁce of Inspector General
                                                                                                           Major Challenges for the Department




Challenge 6
                                                                                        COORDINATOR FOR
PROMOTE FAIR COMPETITION IN                                                        INTERNATIONAL INTELLECTUAL
INTERNATIONAL TRADE                                                                  PROPERTY ENFORCEMENT
                                                                              To combat intellectual property violations and better coor-
The Department of Commerce is charged with promoting trade,                   dinate government efforts, a senior position was created
opening overseas markets to American ﬁrms, and ensuring compli-               within the Department of Commerce in July 2005. This
ance with U.S. laws designed to protect U.S. industry from unfair             ofﬁcial will serve as the head of the National Intellectual
competition from imports. It is also speciﬁcally tasked to address            Property Law Enforcement Coordination Council, coordi-
market access issues and barriers, unfair trade practices, trade              nate with relevant federal agencies, including the Justice
                                                                              Department, the U.S. Trade Representative’s Ofﬁce,
disputes with foreign ﬁrms, noncompliance with or violations of
                                                                              U.S. Customs and Border Protection, State, Agriculture,
trade agreements, inadequate intellectual property protection, and            and within the Department of Commerce, the Patent and
other impediments to trade. Commerce accomplishes these goals                 Trademark Ofﬁce and the International Trade Administra-
through the work of the International Trade Administration. During            tion. In addition, the coordinator will develop policies to
this semiannual period, we focused our efforts on the security status         help protect intellectual property rights, and enforce intel-
of Commercial Service’s overseas ofﬁces, which are responsible                lectual property laws, and implement strategies for promot-
for assisting U.S. exporters. Commercial Service maintains more               ing American intellectual property rights overseas.
than 150 overseas ofﬁces. We also began a full-scale review of
Commerce’s trade-related activities in China.
                                                                           is in progress now, and we will detail our ﬁndings in our March
                                                                           2006 Semiannual Report. As part of this inspection, we expect
                                                                           to address issues of coordination and cooperation among several
                                                                           Commerce bureaus with operations in China and management of
                                                                           the post’s ﬁve ofﬁces in Beijing, Shanghai, Guangzhou, Chengdu,
                                                                           and Shenyang. We will also address export successes, efforts in
                                                                           the area of intellectual property rights and market access, the new
                                                                           American Trading Center initiative, and other issues.

                                                                           Additionally, ITA has informed us that it is addressing issues identi-
                                                                           ﬁed in our previous reviews of posts. Our past reports highlighted
                                                                           problems with overstated or unveriﬁable export successes—a key
                                                                           measure of performance. Since that time, CS took several steps to
                                                                           improve reporting, such as the adoption of new reporting require-
                                                                           ments including the requirement to directly conﬁrm or verify the
                                                                           details of each export success, and appointing a quality control
                                                                           ofﬁcer, among others. We will continue to monitor this area and
The International Trade Administration provides constant information on    report on the Department’s efforts to resolve issues we identify.
nearly every aspect of international trade through easily accessible web
site pages.
Source: http://tse.export.gov.
                                                                           Challenge 7
We reviewed the Commercial Service’s overseas security program
to determine if the 30 CS ofﬁces located outside of an embassy             ENHANCE EXPORT CONTROLS
or consulate compound are in compliance with security standards            FOR DUAL-USE COMMODITIES
and whether sufﬁcient ﬁnancial controls were in place over funds
for security upgrades. The agency has made progress since a 2000           The Department’s Bureau of Industry and Security oversees the
OIG review revealed a number of troubling weaknesses, but we               federal government’s export licensing system for dual-use com-
found that CS needs to do more work to ensure those overseas               modities and technology and is charged with advancing U.S.
ofﬁces meet security standards and to conﬁrm exactly how much              national and economic security interests by enforcing those export
funding remains for upgrades.                                              controls. The primary goal of the licensing and enforcement sys-
                                                                           tem is to prevent hostile nations and terrorist groups who might
We also are continuing with our focus on the Department’s efforts          threaten global security from acquiring technologies and materials
to increase U.S. market opportunities and overcome trade barriers          that have both civilian and military applications by controlling
in difﬁcult foreign markets. An inspection of CS’ post in China            their export.



                                                                                                                                             5
Major Challenges for the Department




The National Defense Authorization Act (NDAA) for FY 2000               tiveness. Legislation to replace the expired Export Administration
directs the inspectors general of Commerce, Defense, Energy,            Act is essential to those efforts, because BIS’ regulatory authority
and State, in consultation with the directors of the Central Intel-     should be strengthened in order to achieve these goals. We will
ligence Agency and Federal Bureau of Investigation, to report to        continue to monitor BIS’ efforts to address our previous NDAA
Congress each year through 2007 on the adequacy of these export         recommendations.
controls and whether they are effectively preventing entities of
concern from acquiring sensitive U.S. technologies. The OIGs
have completed six reviews of export controls. Earlier this year
to meet NDAA’s FY 2005 requirement, Commerce OIG assessed               Challenge 8
BIS’ licensing process for chemical and biological commodities
to determine whether the process was timely and in compliance           ENHANCE EMERGENCY
with statutory and regulatory requirements. We also examined the        PREPAREDNESS, SAFETY, AND
status of recommendations from prior reviews and concluded that,        SECURITY OF COMMERCE
while action on some recommendations has not been completed,            FACILITIES AND PERSONNEL
BIS has made progress on a number of them since our last semi-
annual report. We are still doing the follow-up work and have not       OIG ﬁrst identiﬁed the Department’s emergency preparedness
veriﬁed any of BIS’ claims of recent progress.                          weaknesses in a 2002 review that revealed serious security vulner-
                                                                        abilities. Since then, we have reported on the Department’s efforts
To meet the NDAA’s FY 2006 requirement, Commerce OIG is                 to address the concerns raised in that report. We have continued to
examining whether current licensing and enforcement practices           spotlight areas where Commerce should apply resources to protect
are consistent with relevant laws, regulations, and national security   its 35,000+ employees and hundreds of facilities worldwide.
and foreign policy objectives with respect to exports to China.
In addition, we are evaluating the effectiveness of coordination
between the various federal agencies for China-related export
license applications that have been escalated in the dispute reso-
lution process.

There is no doubt that BIS must remain vigilant in enforcing the
nation’s dual-use export control laws to protect U.S. national
security, while at the same time, ensuring our economic competi-


    EXCERPT: EXPORT ADMINISTRATION
    REGULATIONS
    730.6 CONTROL PURPOSES. The export control provi-
    sions of the EAR are intended to serve the national secu-
    rity, foreign policy, nonproliferation, and short supply inter-
    ests of the United States and, in some cases, to carry out
    its international obligations. Some controls are designed to
    restrict access to dual use items by countries or persons
    that might apply such items to uses inimical to U.S. inter-
    ests. These include controls designed to stem the prolifera-
    tion of weapons of mass destruction and controls designed
    to limit the military and terrorism support capability of
    certain countries. The effectiveness of many of the controls
    under the EAR is enhanced by their being maintained as
    part of multilateral control arrangements. Multilateral export
    control cooperation is sought through arrangements such
    as the Nuclear Suppliers Group, the Australia Group, and
    the Missile Technology Control Regime. The EAR also
    include some export controls to protect the United States
    from the adverse impact of the unrestricted export of com-
    modities in short supply.                                           The members of the Department’s emergency response team are easily
    Source: www.access.gpo.gov/bis/ear/ear_data.html.                   recognizable in brightly colored vests.
                                                                        Source: OIG.




6                                                                                      U.S. Department of Commerce/Ofﬁce of Inspector General
                                                                                                      Major Challenges for the Department




During this reporting period, we completed a follow-up assess-       dated location supporting the Department’s ﬁnancial management
ment of Commerce’s emergency preparedness status. Although           system. The Department has decided to consolidate CBS and its
the Department has dedicated signiﬁcant resources and attention to   associated feeders at the Ofﬁce of Computer Services in Spring-
emergency preparedness, our review noted the need for improve-       ﬁeld, Virginia. This will occur in a phased-in approach. The con-
ments in several areas, including Commerce-wide guidance and         solidation will achieve hardware standardization, reduce redundant
oversight for emergency preparedness, the risk assessment process,   responsibilities and data center costs, and position the Department
development and oversight of occupant emergency plans, security      for the next-generation ﬁnancial system. Further, the Department
for critical assets, and oversight of security guard forces.         will be in the best possible position to maximize long-term beneﬁts
                                                                     and support future upgrades with the least technological impact.
As a complement to our domestic review, we also surveyed the         This major system development will provide an additional chal-
Commercial Service’s 30 overseas ofﬁces that are located outside     lenge to the Department in maintaining its green score in ﬁnancial
of U.S. embassies or consulates to determine, among other things,    management on the President’s Management Agenda Scorecard.
whether (1) any security vulnerabilities exist, (2) upgrades are
timely, and (3) management tools and administrative controls
for the overseas security program and assessment process are
adequate. We found that some security vulnerabilities exist and      Challenge 10
that security upgrades are not always handled in a timely man-
ner. In addition, we found that emergency preparedness issues at     CONTINUE TO IMPROVE THE
overseas ofﬁces have not always been addressed and that there        DEPARTMENT’S STRATEGIC
is insufﬁcient oversight by headquarters managers and staff and
                                                                     PLANNING AND PERFORMANCE
senior commercial ofﬁcers at posts to ensure that emergency
preparedness issues are adequately handled by the embassy or         MEASUREMENT IN ACCORDANCE
consulate regional security ofﬁcer.                                  WITH THE GOVERNMENT
                                                                     PERFORMANCE AND RESULTS ACT
                                                                     Collecting and reporting accurate performance data required by the
Challenge 9                                                          Government Performance and Results Act (GPRA) is a challenge
                                                                     for most federal agencies, and the Department of Commerce is
CONTINUE TO STRENGTHEN                                               no exception. It is imperative for the Department to have accurate
FINANCIAL MANAGEMENT
CONTROLS AND SYSTEMS
In recent years, the Department has improved its ﬁnancial man-
agement, as evidenced by achieving and maintaining unqualiﬁed
opinions on its consolidated ﬁnancial statements for the past 6
consecutive years, implementing Commerce Business Systems
(CBS), and substantially complying with the Federal Financial
Management Improvement Act. Still, there is more to be done.

Under the revised OMB Circular A-123, agencies must assess
internal controls over ﬁnancial reporting, document those controls
and the assessment process, and provide an assurance statement
on the effectiveness of internal control over ﬁnancial reporting
beginning in FY 2006. Reliable ﬁnancial reporting and effective,
efﬁcient program operations depend on strong internal controls.
OIG will continue to monitor a range of ﬁnancial management
issues, including Commerce’s efforts to implement the new A-123
requirements, improve internal ﬁnancial controls, and achieve
other operating efﬁciencies.

The Department also is in the process of working on a detailed
implementation plan consolidating several IT servers that process
ﬁnancial information at six locations into a centralized consoli-
                                                                          Source: Department of Commerce.




                                                                                                                                     7
program measures and reliable data supporting these measures          Although the Department has substantially strengthened its
in order to determine whether programs are accomplishing their        performance reporting in the past few years, as evidenced in our
intended purpose.                                                     ongoing review of performance measurement at the Department,
                                                                      OIG reviews continue to identify the need for enhanced man-
OIG audits of performance measure reporting by some Commerce          agement controls. For example, a recent review of performance
bureaus have repeatedly identiﬁed the need to ensure that individu-   results reported by the Minority Business Development Agency
als who collect and use performance data understand what is being     for FY 2004 showed a number of instances in which success
measured. Prior audits also have consistently shown a need for        rates were overstated. The basic tenet of GPRA is that measuring
improved management controls over performance data, particu-          performance will inform funding decision-making and ultimately
larly where veriﬁcation and validation of information is required.    improve government programming and spending. Every Com-
The bureaus we have audited have generally made improvements          merce bureau should be reporting performance measures that
in response to issues raised, and the Department has established      are appropriate and understandable, and reported data should be
a process by which it will review each of the 115 performance         accurate and reliable.
measures over a 5-year cycle.




8                                                                               U.S. Department of Commerce/Ofﬁce of Inspector General
